Audit
Report
    FINANCIAL REPORTING FOR THE DEFENSE LOGISTICS AGENCY -
            GENERAL FUNDS AT DEFENSE FINANCE AND
                ACCOUNTING SERVICE COLUMBUS


Report No. D-2002-041                          January 18, 2002




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DBMS                  Defense Business Management System
DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
                       Office of the Inspector General, DoD
Report No. D-2002-041                                                  January 18, 2002
  (Project No. D2001FA-0086.001)

           Financial Reporting for the Defense Logistics Agency-
                  General Funds at Defense Finance and
                      Accounting Service Columbus

                                   Executive Summary

Introduction. We performed this audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD and other Government agencies to prepare audited financial statements. The DoD
Agency-wide financial statements include a reporting entity entitled “Other Defense
Organizations-General Funds.” This entity represents a consolidation of financial
information from various Defense organizations and funds that use the Treasury
Index 97 symbol. This audit focused on abnormal trial balances at Defense Finance
and Accounting Service Columbus for the Defense Logistics Agency. As of March 31,
2001, trial balances prepared by Defense Finance and Accounting Service Columbus
included net abnormal balances of $54.4 million, of which $23.9 million was for the
Defense Logistics Agency-General Funds. We reviewed five general ledger accounts
with the largest net abnormal balances, totaling $20.9 million (finding A). We audited
the financial reporting procedures that Defense Finance and Accounting Service
Columbus used to report on Treasury Index 97 funds.

Objective. Our audit objective was to determine the accuracy and completeness of the
financial data that Defense Finance and Accounting Service Columbus submitted to
Defense Finance and Accounting Service Indianapolis (Sustaining Forces) for inclusion
in the FY 2001 Other Defense Organizations financial statements. Specifically, we
looked at the abnormal balances reported in trial balances prepared by Defense Finance
and Accounting Service Columbus. In addition, we reviewed the management controls
related to our objective.

Results. The March 31, 2001, trial balances prepared from accounting records
maintained by Defense Finance and Accounting Service Columbus included
$23.9 million in net abnormal balances for the Defense Logistics Agency-General
Funds. The abnormal balances were not explained in required footnotes. The review
of trial balances prepared by Defense Finance and Accounting Service Columbus
identified the following deficiencies.

       •   The Defense Business Management System, a legacy accounting system,
           significantly limited the ability of accounting personnel to prepare accurate
           proprietary trial balances (finding A).
       •   Management controls over the interim processes that Defense Finance and
           Accounting Service Columbus used to overcome accounting system
           limitations were not adequate (finding A).

       •   The allocations of undistributed collections to Accounts Receivable and
           undistributed disbursements to Accounts Payable were not reasonable or
           consistent (finding B).

The limitations of the Defense Business Management System have been long-standing
and well documented. Unresolved system deficiencies continue to impede DoD’s
ability to receive a favorable audit opinion on annual financial statements. Until the
Defense Business Management System is replaced, account balances will continue to be
incorrect and unreliable on the FY 2001, and future financial statements prepared for
the Other Defense Organizations. However, the abnormal balances discussed in this
report did not have a material effect on the financial statements of Other Defense
Organizations-General Funds, nor did they adversely impact the routine operations at
Defense Finance and Accounting Service Columbus. See Appendix A for details on the
management control program.

Summary of Recommendations. We recommend that Defense Finance and
Accounting Service Columbus review quarterly trial balances for abnormal balances;
prepare footnotes to address abnormal conditions and accounting system limitations;
modify standard operating procedures to address quarterly trial balances preparation
and review; and establish a standard methodology for allocating undistributed
collections and undistributed disbursements.

Management Comments. The Director, Defense Finance and Accounting Service
Columbus, concurred with the findings and recommendations, stating that the
identification and explanation of abnormal balances will be completed by the mid-year
reports. Defense Finance and Accounting Service Columbus will begin reviews of the
quarterly trial balances, continue to improve footnote explanations and revise standard
operating procedures. Corrective actions are expected to be completed by April 30,
2002. See the Finding section for a discussion of management comments and the
Management Comment section for the text of the comments.




                                           ii
Table of Contents

Executive Summary                                                     i


Introduction
     Background                                                       1
     Objectives                                                       1

Findings
     A. Accounting for Abnormal Balances                              3
     B. Accounting for Undistributed Collections and Disbursements   10

Appendixes
     A. Audit Process
         Scope                                                       14
         Methodology                                                 14
         Management Control Program Review                           15
         Prior Coverage                                              16
     B. Report Distribution                                          17

Management Comments
     Defense Finance and Accounting Service Columbus                 19
Background
     Other Defense Organizations. The audit was performed as part of the
     continuing audit work of the Inspector General, DoD, in support of the Chief
     Financial Officers Act of 1990, as amended by the Federal Financial
     Management Act of 1994, which requires DoD and other Government agencies
     to prepare audited financial statements. Specifically, the DoD Agency-wide
     financial statements include a reporting entity entitled “Other Defense
     Organizations-General Funds.” The reporting entity represents a consolidation
     of financial information from various Defense organizations and funds that use
     the Treasury Index 97 Symbol (referred to as Department 97). The FY 2000
     financial statements for the Other Defense Organizations-General Funds
     included $3.9 billion of net abnormal balances reported in trial balances
     prepared by supporting accounting offices. The third largest portion of those
     net abnormal balances, $395 million, was reported by Defense Finance and
     Accounting Service (DFAS) Columbus. As of March 31, 2001, trial balances
     prepared by DFAS Columbus included net abnormal balances of $54.4 million,
     of which $23.9 million was for the Defense Logistics Agency (DLA)-General
     Funds.

     Accounting Support. DFAS Columbus provided accounting support for
     10 Other Defense Organizations, which included DLA. Accounting support
     includes analyzing, reviewing, validating, and reporting obligations, accruals,
     and disbursements. Accounting support also includes preparing budgetary
     reports and trial balances. DFAS Columbus used information from the Defense
     Business Management System (DBMS) to prepare quarterly trial balances that
     are consolidated at year-end into the financial statements for Other Defense
     Organizations.

     DLA-General Funds. DLA is a logistics combat support agency whose
     primary role is to provide supply support, technical support, and logistics
     services to the DoD. In FY 2001, DFAS Columbus reported accounting
     information for seven DLA-General Fund appropriations, with a combined
     budget authority of $385.4 million.

     Defense Business Management System. DFAS Columbus uses DBMS to
     perform general ledger double entry accounting for DLA. DBMS is an
     automated resource management and accounting system, which DoD has
     designated as a legacy system. Therefore, according to the DoD Financial
     Management Improvement Plan, volume II, January 2001, DBMS will be
     consolidated into the DFAS Business Management Redesign Initiative in
     September 2003.


Objectives
     The audit objective was to determine the accuracy and completeness of the data
     that DFAS Columbus submitted to DFAS Indianapolis (Sustaining Forces) for


                                         1
inclusion in the annual Other Defense Organizations financial statements.
Specifically, we looked at the abnormal balances reported in trial balances
prepared by DFAS Columbus for DLA-General Fund appropriations. In
addition, we reviewed DFAS Columbus management controls related to our
objectives. See Appendix A for a discussion of the audit scope, methodology,
review of the management control program, and prior coverage related to the
audit objectives.




                                   2
                     A. Accounting for Abnormal Balances
                     Trial balances prepared for the DLA-General Funds as of March 31,
                     2001, from accounting records that DFAS Columbus maintained,
                     included $23.9 million of net abnormal balances, and none were
                     explained in required footnotes. The condition occurred because DFAS
                     Columbus continued to use DBMS, a legacy accounting system that did
                     not produce complete and accurate proprietary trial balances for
                     individual organizations. The condition also occurred because the
                     management controls, for the financial reporting process that DFAS
                     Columbus used to overcome the DBMS limitations, were not adequate.
                     Until DBMS is consolidated into the DFAS Business Management
                     Redesign Initiative in 2003, the abnormal balances and control
                     deficiencies will not be fully corrected. Also, the FY 2001 and future
                     financial statements prepared for the Other Defense Organizations-
                     General Funds will likely be misstated.


Mid-Year Trial Balances
            The March 31, 2001, trial balances prepared from accounting records that
            DFAS Columbus maintained reported $54.4 million of net abnormal balances,
            which included $23.9 million of net abnormal balances in eight general ledger
            proprietary1 accounts for DLA-General Fund appropriations. We reviewed
            five general ledger accounts with the largest net abnormal balances. Those
            account balances totaled $20.9 million and represented 87.5 percent of the
            DLA-General Funds total abnormal balances, as shown in Table 1.




1
    Proprietary accounts refer to assets, liabilities, equity, revenues, and expenses, which should be used for
    preparing internal and external accounting reports.


                                                        3
             Table 1. General Ledger Accounts with Net Abnormal Balances
                      for DLA-General Funds as of March 31, 2001

                                                                                Percent of
                                                      General      Net          Total Net
                                                      Ledger Abnormal Balance   Abnormal
    Account Title                                     Account    (millions)      Balances

    Accounts Receivable                                1310*     $ 8,771,344       36.7

    Revenue from Goods Sold                            5100*      3,092,348        12.9

    Cost of Goods Sold                                 6500*      3,092,348        12.9

    Expended Appropriations                            5700*      2,974,822        12.5

    Operating Expense/Program Costs                    6100*      2,974,822        12.5

          Subtotal                                               20,905,684        87.5

    Fund Balance With Treasury                         1010       2,528,004        10.6

    Appropriated Capital                               3100         441,585         1.8

    Advances to Others                                 1410          14,507         0.1

              Total                                             $23,889,780       100.0
    *
        General ledger account selected for review.



    General ledger reporting uses separate accounts to record increases and
    decreases in assets, liabilities, and equity. The normal balance for an account is
    positive. If an account balance becomes negative, it is abnormal. An abnormal
    balance represents more decreases to an account than increases and is generally
    indicative of a reporting anomaly that requires explanation.


DFAS and DLA Use of DBMS
    DFAS and DLA continue to use DBMS, which DoD has designated as a legacy
    system. The results of this audit reiterate the continuing need for DoD to
    replace legacy systems with systems that are fully compliant with generally
    accepted Government accounting standards. The limitations of DBMS largely
    contributed to the abnormal balances we reviewed. Because DBMS is a legacy

                                                 4
           system, limited funding is available to change the system. DoD Memorandum,
           “Accelerated Implementation of Migration Systems, Data Standards, and
           Process Improvement,” October 13, 1993, states that “funding for development,
           modernization, or enhancement of legacy systems…” is limited to mission
           essential changes. DBMS limitations have been long standing and well
           documented. In response to Inspector General, DoD, Report No. 98-134,
           “Payroll Expenses Reported by the Defense Finance and Accounting Service
           Columbus Center,” May 14, 1998, DFAS stated that they were reviewing
           alternatives to replace DBMS; however, DFAS Columbus is still using DBMS.
           System deficiencies will continue to exist until DBMS is consolidated into the
           DFAS Business Management Redesign Initiative, which is currently scheduled
           for September 2003. According to the General Accounting Office, unresolved
           system deficiencies impede DoD's ability to obtain reliable financial data and
           prepare annual financial statements.2 Unresolved system deficiencies continue
           to be a critical obstacle to DoD's ability to receive a favorable audit opinion on
           annual financial statements.


Process Used to Prepare Proprietary Trial Balances
           DFAS Columbus used a combination of automated and manual processes to
           prepare trial balances for organizations receiving general fund appropriations.
           The abnormal balances occurred in part because of DBMS limitations.

           DBMS Limitations. DBMS cannot produce complete trial balances for
           individual organizations. A complete trial balance contains proprietary accounts
           that show the current status of assets, liabilities, equity, revenues, and expenses.
           The trial balance also contains budgetary accounts that show the source and
           status of budgetary resources. DBMS produced separate trial balances for
           proprietary accounts and for budgetary accounts.

                   Proprietary Trial Balances. DBMS produced a proprietary trial
           balance for each general fund appropriation but not for each organization. The
           appropriation level proprietary trial balances report the combined balances for
           all organizations funded by the appropriation. Because financial statements are
           prepared for individual organizations, the appropriation level proprietary trial
           balances are not useful for financial statement reporting. As a result, DFAS
           Columbus did not use the appropriation level proprietary trial balances.

                  Budgetary Trial Balances. DBMS produced budgetary trial balances
           for each organization. Accounting personnel use the budgetary trial balances,
           along with accounting information from other sources to approximate the
           proprietary account balances for each organization. However, budgetary
           accounts have limited capability for calculating balances in proprietary accounts.
           Budgetary accounts are not designed to report assets, liabilities, equity, revenues

2
    General Accounting Office, Report No.GAO-02-29,"FFMIA Implementation Critical for Federal
    Accountability,” October 1, 2001.




                                                   5
            or expenses. Furthermore, budgetary accounts do not provide the capability to
            differentiate between adjustments affecting the current reporting period and
            those affecting a prior reporting period.

            Abnormal Balances Created Due to DBMS Limitations. Of the $23.9 million
            of net abnormal balances, DBMS limitations contributed to net abnormal
            balances of $12.1 million reported in the following four proprietary accounts:

                     •   Cost of Goods Sold (general ledger account 6500),

                     •   Revenue from Goods Sold (general ledger account 5100),

                     •   Expended Appropriations (general ledger account 5700), and

                     •   Operating Expenses/Program Costs (general ledger account 6100).

            All four accounts are nominal3 accounts and, therefore, close at the end of each
            reporting period. DFAS and DLA accounting personnel posted increases and
            decreases during FY 2001 to those four accounts to correct transactions posted
            in previous fiscal years. The recorded decreases exceeded the recorded
            increases, creating an abnormal balance in each account. Those adjustments
            should have been posted to Prior Period Adjustments (general ledger
            account 7400), a proprietary account. At the end of each fiscal year, general
            ledger account 7400 is closed to Cumulative Results of Operations and does not
            affect current year receivables, payables, revenues, and expenses. DFAS
            Columbus accounting personnel did not use general ledger account 7400 because
            DBMS did not have the capability to report a balance in that account for each
            organization.


Management Controls Over the Interim Reporting Process
            DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
            volume 6A, chapter 2, “Departmental Financial Reporting Roles and
            Responsibilities,” February 1996 (with changes through 2001), requires each
            accounting office to establish management controls. Management controls
            should ensure financial reports are reliable, accurate and supported by a clear
            audit trail. However, the procedures in place at DFAS Columbus did not
            provide adequate control over the:

                     •   use of spreadsheets,

                     •   review of trial balances,



3
    Proprietary nominal accounts reflect accounting information for a single fiscal year and are closed at the
    end of each fiscal year to Cumulative Results of Operations (general ledger account 3310). The
    accounts begin the following year with a zero balance. Revenue and expense accounts are nominal
    accounts.


                                                        6
                    •    preparation of explanatory footnotes, and

                    •    documentation of audit trails.

           Controls Over Spreadsheets. To prepare proprietary trial balances, DFAS
           Columbus accounting personnel developed elaborate spreadsheets, imported
           budgetary account balances from DBMS into the spreadsheets, and subsequently
           used the budgetary balances to calculate balances for proprietary accounts. The
           spreadsheets contained numerous complex formulas for manipulating data.
           Those same types of spreadsheets used different formulas to calculate balances
           for identical proprietary accounts. The inconsistencies occurred, in part,
           because accounting personnel had not thoroughly reviewed the spreadsheets to
           ensure consistency and accuracy among the formulas. When interviewed,
           accounting personnel stated they had inherited the spreadsheets and that
           documentation did not exist to explain the rationale supporting the formulas.
           For example, one spreadsheet had an incorrect formula that directly contributed
           to an abnormal balance. At least $2.6 million of the $2.7 million net abnormal
           balance reported in Revenue From Goods Sold (general ledger account 5100)
           occurred because a spreadsheet formula included a wrong account.

           Controls Over Reviewing Trial Balances. Although DFAS Columbus had
           management control procedures over the financial reporting process, significant
           opportunities for improvement existed. For example, DFAS Columbus
           submitted FY 2000 year-end trial balances to DFAS Indianapolis (Sustaining
           Forces) for inclusion in the financial statements without thoroughly reviewing
           the trial balances for abnormal conditions, as required.4 The trial balance
           prepared for the DLA-General Funds included $227 million of net abnormal
           balances in Accounts Payable-Federal (general ledger account 2110). Those
           abnormal balances occurred because multiple accounts were incorrectly included
           in the spreadsheet formulas used to calculate the balance. Had DFAS Columbus
           performed a thorough review of the trial balances, accounting personnel could
           have detected the incorrect accounts included in the formula. DFAS Columbus
           should revise its standard operating procedure, “Trial Balance Report, Review,
           and Reconciliation,” October 1, 1997, to provide detailed instructions on
           reviewing quarterly and year-end trial balances for abnormal balances.
           Required Footnotes. DFAS Indianapolis Memorandum, “Year-End
           Instructions for Defense Agencies,” June 16, 2000,5 states that accounting
           offices reporting Department 97 funds must explain abnormal balances in
           footnotes. Footnotes should explain the circumstances surrounding the
           abnormal balance, corrective actions being taken, and a date when the balance is
           to be corrected. DFAS Columbus accounting personnel were not aware that
           footnotes were required for the quarterly trial balances and did not submit
4
    DoD Regulation 7000.14-R, volume 6A, chapter 2, “Departmental Financial Reports Roles and
    Responsibilities,” February 1996 (with changes through 2001), requires both DFAS and the DoD
    component, in this case DLA, to review financial reports for abnormal balances. When DFAS and the
    DoD component identify deficiencies, they are required to initiate research and take action to resolve
    the deficiencies.
5
    DFAS Indianapolis Memorandum, “Year-End Instructions for Defense Agencies,” was reissued in
    June 2001 for FY 2001 and requires accounting offices to prepare explanatory footnotes.


                                                      7
    footnotes for the March 31, 2001, trial balances. We informed DFAS
    Columbus of the requirement, and accounting personnel prepared and submitted
    footnotes with the June 2001 quarterly trial balances.

    Lack of Audit Trails. We, along with DFAS Columbus accounting personnel,
    attempted to research the cause of the $8.7 million net abnormal balance in
    Accounts Receivable (general ledger account 1310) reported in the March 31,
    2001, trial balance. However, an adequate audit trail did not exist. DFAS
    Columbus accounting personnel could not provide a complete explanation or
    supporting documentation at the transaction level for the abnormal balance.
    DFAS Columbus acknowledged that the interim reporting process, combined
    with the limited capabilities of DBMS, did not provide an adequate audit trail.



Summary

    We reviewed abnormal balances in five of the eight general ledger accounts that
    reported abnormal balances. The causes for abnormal balances in those
    five accounts were created because of system limitations and because of flawed
    business practices. Although net abnormal balances may be immaterial dollar
    amounts, they represent cumulative financial activity and may be indicators of
    potentially material problems. Therefore, DFAS Columbus should review
    remaining general ledger accounts with abnormal balances to identify the cause
    of the abnormal balances and determine whether those abnormal balances
    occurred because of system limitations that cannot be changed, or because of
    business processes that can be changed.


Recommendations and Management Comments
    We recommend that the Director, Defense Finance and Accounting Service
    Columbus:

           1. Initiate a review of all abnormal general ledger accounts in the
    Defense Logistics Agency-General Funds. Determine the cause of those net
    abnormal balances, document the causes, and, where possible, correct the
    balances. (See Table 1. for a listing of abnormal balances as of March 31,
    2001.)

    Management Comments. DFAS Columbus concurred and stated that DBMS
    software release 13.5 provides a tool that identifies and displays proprietary
    accounts for General Funds by program year, which may provide additional
    functionality to DBMS for researching abnormal balances. DFAS Columbus
    will start providing analysis of abnormal balances for individual trial balances at
    the suballotment level beginning with the January 2002 trial balances. Also, the
    Agency Reporting Division will complete identification and explanation of
    abnormal balances by April 30, 2002.


                                         8
      2. Modify standard operating procedures to require Defense Finance
and Accounting Service Columbus accounting personnel to perform routine
reviews of the quarterly trial balances provided to the Defense Finance and
Accounting Service Indianapolis (Sustaining Forces) to:

              a. Identify abnormal balances;

Management Comments. DFAS concurred and will revise standard operating
procedures by April 30, 2002, to provide detailed instructions for reviewing
quarterly and year-end trial balances for abnormal balances beginning with the
March 2002 reports.

              b. Document the cause and effect of abnormal balances and
explain, as necessary, any system limitations causing the abnormal
balances;

Management Comments. DFAS Columbus concurred and will update standard
operating procedures. The standard operating procedures will state that the
operational areas, on a monthly basis, will provide the Agency Reporting
Division with an analysis of abnormal balances. The analysis will include
explanations of those abnormal balances at the individual trial balance level.
The Agency Reporting Division will use this information when preparing the
March 2002 reports. The estimated completion date is April 30, 2002.

              c. Provide footnote explanations of abnormal conditions to
the Defense Finance and Accounting Service Indianapolis (Sustaining
Forces) for use in preparing the financial statements; and

Management Comments. DFAS Columbus concurred and began improving
footnote explanations with the October 2001 reports and stated that they will be
in full compliance as of the March 2002 reports. The standard operating
procedures will be updated to include the footnote responsibilities by April 30,
2002.

              d. Correct abnormal balances generated by business process
anomalies.

Management Comments. DFAS Columbus concurred in principle and stated
that, if possible, they will correct abnormal balances generated by business
anomalies. The operational areas will provide information to the Agency
Reporting Division to correct those abnormal balances beginning with the
March 2002 reports.




                                    9
                    B. Accounting for Undistributed
                       Collections and Disbursements
                    For the March 31, 2001, DLA-General Funds trial balances, DFAS
                    Columbus did not consistently allocate:

                         •    undistributed collections of $47 million to Accounts Receivable
                              Federal and Accounts Receivable Public, and

                         •    undistributed disbursements of $42.3 million to Accounts
                              Payable Federal and Accounts Payable Public.

                    DFAS Columbus used different percentages for different appropriations
                    and could not provide a reasonable rationale for using the diverse
                    percentages. The condition occurred because DFAS Columbus had not
                    developed and documented a standard allocation methodology. DFAS
                    Columbus acknowledged that the process was not consistent and, in
                    July 2001, initiated action to develop a standard methodology for
                    performing a reasonable allocation that can be consistently applied to all
                    DLA-General Fund appropriations. Until fully corrected, the financial
                    statements will not consistently report undistributed collections and
                    disbursements.


Undistributed Collections and Disbursements
            Origin of Undistributed Collections and Disbursements. As of March 31,
            2001, the DLA-General Funds trial balances reported $47 million of
            undistributed collections and $42.3 million of undistributed disbursements.
            Undistributed collections and disbursements represent the differences between
            U.S. Treasury records and the accounting records that DFAS Columbus
            maintained for DLA-General Funds. DFAS Columbus attributed those
            differences to collections and disbursement transactions that are in-transit.
            Thus, it is reasonable to allocate undistributed collections and disbursements as
            a result of the ratio of Federal receivables to public receivables, and Federal
            payables to public payables, respectively6. However, because DBMS
            summarized DLA-General Funds entities on the proprietary trial balances,
            DFAS Columbus was unable to differentiate between Federal and public
            receivables and payables. Therefore, because of DBMS limitations, DFAS
            Columbus adopted a process that adjusted the accounting records to reflect the
            collections and disbursements reported by the U.S. Treasury. As part of the
            adjustment, DFAS Columbus adjusts Accounts Receivable (Federal and public)
            and Accounts Payable (Federal and public).



6
    Accounts receivable are liquidated by collections and accounts payable are liquidated by disbursements.



                                                      10
Allocation Percentages. We reviewed the percentages that DFAS Columbus
used to allocate undistributed collections and disbursements between Federal and
public Accounts Receivable and Federal and public Accounts Payable for the
September 30, 2000, and March 31, 2001, time periods. The allocation
percentages used did not provide a current basis that was reasonable. The
percentages were not consistent between appropriations or between time
periods. In addition, large unexplained positive and negative percentages were
applied to allocate undistributed disbursements, as shown in Table 2.

         Table 2. Examples of Inconsistent Allocation Percentages Used by
             DFAS Columbus to Report Undistributed Disbursements

                                      Allocations to                Allocations to
 Basic Symbol1                   Accounts Payable Federal       Accounts Payable Public
     Date                                   (percent)                     (percent)


 0100
     September 2000                             6.43                       93.57
     March 2001                               100.00                        0.00

 04002
     September 2000                       -54731.863                  54831.863
     March 2001                              188.89                     -88.89

 0500
     September 2000                           170.493                     -70.493
     March 2001                               100.00                        0.00

 0834
     September 2000                              61.12                     38.88
     March 2001                                  86.79                     13.21
1
    The basic symbol represents a specific appropriation.
2
 Basic symbol 0400, “Research, Development, Test and Evaluation,” is an appropriation that
receives money that can be obligated for two years. The numbers used represent the
percentages applied to funds available for obligation from FY 1999 through FY 2000.
3
 Percents over 100, when combined with the corresponding negative percent, allocated
100 percent of the undistributed amounts



Basis for Allocating Undistributed Collections and Disbursements. DFAS
Columbus accounting personnel could not provide an explanation for the logic
behind the diverse percentages used to allocate the undistributed collections to
Accounts Receivable and the undistributed disbursements to Accounts Payable.
As a result of system and process deficiencies, a complete reconciliation cannot
be performed between U.S. Treasury records and DFAS Columbus accounting
records. Therefore, it is reasonable that DFAS Columbus estimate that the



                                            11
     proper amount of undistributed collections and disbursements to be allocated to
     Accounts Receivable (Federal and public) and Accounts Payable (Federal and
     public). However, the estimate should be calculated using a reasonable,
     consistent, and clearly documented basis. This has not been the case. As
     shown in Table 2, the adjustments made to allocate undistributed amounts were
     inconsistent and caused gross distortions to Accounts Payable.

     Corrective Actions Initiated by DFAS Columbus. During the audit, we
     informed DFAS Columbus accounting personnel of the inconsistencies in the
     allocation process. In response, DFAS Columbus initiated actions to develop a
     methodology that would apply the undistributed collections and disbursements
     consistently and reasonably to Accounts Receivable (Federal and public) and
     Accounts Payable (Federal and public) to all DLA-General Fund appropriations.
     DFAS Columbus plans to implement a new methodology for allocating the
     undistributed collections and disbursements beginning the first quarter of
     FY 2002.


Impact on the Financial Statements
     The proper allocation of undistributed collections and disbursements to Federal
     and public accounts is important to ensure the accuracy and integrity of the
     Other Defense Organizations financial statements. The allocation is important
     to avoid creating abnormal balances and to prepare eliminating entries.

     Abnormal Balances. Unless reasonable and consistent percentages are used to
     allocate undistributed collections and disbursements, the account balances
     reported on the financial statements are at risk of reporting abnormal balances.
     For example, the September 30, 2000, trial balances prepared for the
     DLA-General Funds included at least $22.6 million of net abnormal balances in
     Accounts Payable-Federal, which was created by the percentage used to allocate
     undistributed disbursements. Until a standard methodology is created that uses
     a reasonable basis for allocating undistributed collections and disbursements, the
     FY 2001 and future financial statements are at risk of being misstated.

     Eliminating Entries. According to DoD Regulation 7000.14-R, volume 6B,
     chapter 13, “Fiscal Year 2000 Adjustments, Eliminations, and Other Special
     Intragovernmental Reconciliation Procedures,” October 2000, transactions
     among sub-entities must be eliminated when consolidated financial statements
     are prepared for the parent entity. When DLA-General Funds are consolidated
     with Other Defense Organizations and the Military Departments into the
     Defense Agency-wide financial statements, the transactions between
     DLA-General Funds and other DoD entities must be eliminated.




                                         12
Recommendation and Management Comments
    We recommend that the Director, Defense Finance and Accounting Service
    Columbus, establish a standard methodology to allocate the undistributed
    collections to Accounts Receivable (Federal and public) and the
    undistributed disbursements to Accounts Payable (Federal and public).
    This methodology should be documented, communicated to all accountants,
    and used consistently among the Defense Logistics Agency-General Fund
    appropriations.

    Management Comments. DFAS Columbus concurred and will revise standard
    operating procedures by April 30, 2002, to provide detailed steps to improve
    tracking of undistributed collections and disbursements down to the trial balance
    level. Those procedures will eliminate the need to allocate undistributed
    collections and disbursements based on percentages. The revised procedures
    will also improve coordination between operational and reporting areas.




                                       13
Appendix A. Audit Process

Scope
    Financial Information, Procedures, and Controls Reviewed. We reviewed
    the procedures and related controls used by DFAS Columbus to prepare
    quarterly and year-end trial balances for Other Defense Organizations. We
    specifically focused on abnormal balances reported in trial balances. The
    FY 2000 financial statements for the Other Defense Organizations-General
    Funds included $3.9 billion of abnormal balances reported in trial balances
    prepared by supporting accounting offices. DFAS Columbus reported
    $395 million of those abnormal balances, the third largest portion. Therefore,
    we performed detailed audit work on the FY 2001 mid-year trial balances
    prepared by DFAS Columbus. As of March 31, 2001, trial balances prepared
    by DFAS Columbus reported $54.4 million in net abnormal balances, of which
    $23.9 million was attributed to the DLA-General Funds. We reviewed the
    abnormal balances for the DLA-General Funds because there was no audit
    coverage for the DLA-General Funds. We reviewed detailed transactions
    totaling $20.9 million in five general ledger accounts from trial balances
    prepared by DFAS Columbus as of March 31, 2001. We also performed
    reviews of the September 30, 2000, trial balances. We reviewed written
    standard operating procedures, budgetary reports and trial balances for the
    FY 2000 and FY 2001 reporting periods. We also interviewed DFAS
    Columbus personnel to determine how information is obtained, recorded,
    reported, and reviewed in trial balance reports.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Financial Management high-risk area.


Methodology
    Review of Abnormal Balances. We identified eight general ledger accounts
    with net abnormal balances of $23.9 million prepared from accounting records
    maintained by DFAS Columbus for the DLA-General Funds. We then selected
    and reviewed five general ledger accounts with net abnormal balances greater
    than $2.6 million. The five balances reviewed were Accounts Receivable,
    Revenue from Goods Sold, Cost of Goods Sold, Expended Appropriations, and
    Operating Expense/Program Costs, which totaled $20.9 million. We also
    performed a review of trial balances prepared by DFAS Columbus as of
    September 30, 2000, to identify the total net abnormal balances at fiscal
    year-end. We employed a business process approach to evaluate how DBMS
    users recorded adjustments to revenue and expense accounts and successfully
    determined at least one major cause of the abnormal balances in those accounts.



                                       14
    Use of Computer-Processed Data. We relied on computer-processed
    accounting information contained in DBMS at DFAS Columbus. DBMS is a
    DoD legacy system and is scheduled for consolidation into the DFAS Business
    Management Redesign Initiative in September 2003. We obtained information
    for collections, disbursements, revenues, and expenses. We also relied on data
    produced from Microsoft Excel spreadsheets that DFAS Columbus developed to
    calculate proprietary balances for quarterly and year-end trial balances. The
    spreadsheets contained complex formulas for manipulating accounting
    information from the DBMS. We performed testing on the DBMS and
    Microsoft Excel spreadsheets by reviewing balances, transactions, and business
    processes. Our assessments showed that DBMS and the Microsoft Excel
    spreadsheets could not produce complete and accurate trial balances for
    individual organizations. Our review further showed that DBMS could not
    properly post prior period adjustments. However, our reliance on computer
    processed data did not affect our audit conclusions.

    Audit Type, Date, and Standards. We performed this financial-related audit
    from May 2001 through October 2001, at DFAS Columbus, Columbus, Ohio,
    and DFAS Indianapolis (Sustaining Forces), Indianapolis, Indiana, in
    accordance with generally accepted Government auditing standards. We
    included tests of management controls considered necessary.

    Contacts During the Audit. We visited and contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DFAS Columbus management controls over Department 97
    financial reporting. Specifically, we reviewed controls over the preparation and
    review of trial balances. We reviewed management’s self-evaluation applicable
    to those controls.

    Adequacy of Management Controls. We did not identify a material
    management control weakness for DFAS Columbus as defined by DoD
    Instruction 5010.40. The abnormal balances occurred in part because of the
    way DBMS was configured; however, because DBMS is a DoD legacy system,
    we did not make recommendations to change its configuration. Further, the
    abnormal balances we reviewed did not have a material effect on the financial
    statements. DoD has compiled the FY 2000 Financial Management
    Improvement Plan that designates DBMS as a legacy system. The designation



                                       15
    as a legacy system acknowledges for all users that DBMS has limitations and
    will, therefore, be consolidated into the DFAS Business Management Redesign
    Initiative in September 2003.


Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports.




                                     16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Columbus
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs




                                           17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         18
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Sandra L. Fissel
Jonathan R. Witter
Juana R. Smith
Karen J. Lamar
Carol J. Gresham
Stephen G. Wynne
